HHS/OIG, Audit -"Calendar Year 2001 Adjusted Community Rate Proposal Modifications Under the Benefit Improvement
Protection Act Submitted by Florida Health Care Plan, Holly Hill, Florida,"(A-04-03-06017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Calendar Year 2001 Adjusted Community Rate Proposal Modifications Under the Benefit Improvement Protection Act Submitted
by Florida Health Care Plan, Holly Hill, Florida," (A-04-03-06017)
August 9, 2004
Complete
Text of Report is available in PDF format (741 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether Florida Health used the additional capitation payments in a manner
consistent with the Benefits Improvement Protection Act (BIPA) requirements and (2) supported the modifications to the
2001 proposal.  About $1.2 million of the $6.9 million increase in Florida Health’s revised proposal was not
used in a manner consistent with BIPA requirements or was not supported.  We recommended that Florida Health refund
$1,247,220 to the Centers for Medicare & Medicaid Services or, as an alternative, deposit this amount in a benefit
stabilization fund for use in future years.  We also recommended that Florida Health ensure that estimated costs in
future proposals are properly supported.  Florida Health agreed with our recommendations.